~'

                                                             NATIONAL SCIENCE FOUNDATION
                                                              OFFICE OF INSPECTOR GENERAL
                                                                OFFICE OF INVESTIGATIONS

                                                     CLOSEOUT MEMORANDUM

      Case Number: A09040036
       I
                                                                                                       Page 1 of 1



                        We reviewed a plagiarism allegation in which a PI! allegedly failed to provide appropriate
               attribution for a postdoc' s contributions to a published paper2 reporting the results of an NSF -funded
               project. 3 We determined there was insufficient evidence to support an allegation of research
               misconduct.

                         Accordingly, this case is closed.




 I   NSF OIG Form 2 (11/02)
